      MANAGEMENT OF POTENTIALLY INACTIVE ITEMS
          AT THE DEFENSE LOGISTICS AGENCY


Report No. D-2001-035               January 24, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at: www.dodig.osd.mil or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DIIP                  Defense Inactive Item Program
DLA                   Defense Logistics Agency
DSCP                  Defense Supply Center Philadelphia
IIRC                  Inactive Item Review Code
IM                    Item Manager
NSN                   National Stock Number
                       Office of the Inspector General, DoD
Report No. D-2001-035                                        January 24, 2001
 (Project No. D1999LD-0028.001)

                   Management of Potentially Inactive Items
                      at the Defense Logistics Agency

                                  Executive Summary

Introduction. This report, the second in a series of reports on obsolete national stock
number (NSN) items, discusses the Defense Logistics Agency (DLA) management of
potentially inactive NSNs. Inspector General, DoD, Report No. D-2000-185,
“Allegations to the Defense Hotline Concerning Management of Obsolete Reparable
Items,” September 7, 2000, discusses obsolete NSNs in Navy weapon system files.

An NSN is considered obsolete if the NSN is inactive and there are no current or future
requirements anticipated by any registered user or the integrated materiel manager of
the NSN. Potentially inactive, or obsolete, NSNs that are not reviewed and deleted
from the DoD supply system needlessly consume cataloging and supply system files,
machine time, personnel resources, and warehouse space. As of July 2000, DLA
supply records, excluding the clothing and textile, medical, and subsistence
commodities, identified 91,097 NSNs that were coded as potentially inactive because
the Military Departments had withdrawn their interest as users and no longer required
the items. DLA policy requires that item managers review potentially inactive NSNs to
determine whether the NSNs should be deleted or retained in the DLA supply system.

Objectives. Our overall audit objective was to evaluate the processes that the Military
Departments and DLA used to identify and delete items in weapon system files that had
obsolete NSNs. This report addresses DLA management of NSNs coded as potentially
inactive. We also reviewed the management control program as it applied to the audit
objective. Subsequent reports will address obsolete NSNs in Military Department and
DLA supply system files.

Results. DLA item managers did not take timely actions to review potentially inactive
NSNs to determine whether the NSNs should be deleted from the DLA supply system.
Of the 91,097 potentially inactive NSNs, 87,437 (96 percent) had been awaiting review
by DLA item managers for at least 90 days and 36,066 (41 percent) of those
87,437 NSNs had been awaiting review since 1998 or earlier. Of the 91,097 NSNs,
32,625 had inventory on hand, valued at approximately $68.1 million. As a result of
our audit, the Defense Supply Center Philadelphia developed a computer program to
expedite the review process and deleted 20,385 of the 26,434 NSNs that had been in a
review status over 90 days at the Center. However, because there are 64,663 more
NSNs that still require DLA item manager review, we believe that the number of
potentially inactive NSNs that could be deleted is significantly greater. Using a DLA
cost study, we calculated that DLA avoided a minimum of $17.2 million of costs by
eliminating unnecessary cataloging and supply system files, and by reducing inventory
for the 20,385 NSNs. The full extent of the monetary benefits will be quantifiable after
management identifies and takes action to delete all inactive NSNs and disposes of
obsolete, excess inventory. For details of the audit results, see the Finding section of
this report. See Appendix A for a discussion of the management control program.

Summary of Recommendations. We recommend that the Director, DLA, establish
controls to ensure the timely review of potentially inactive NSNs that no longer have a
user requirement to determine whether the NSNs should be deleted from the DLA
supply system. We also recommend that the controls require an annual evaluation of
review timeliness.

Management Comments. We provided a draft of this report on October 27, 2000.
DLA did not respond to the draft report. Therefore, we request that DLA provide
comments by March 23, 2001.




                                           ii
Table of Contents

Executive Summary                             i

Introduction
     Background                              1
     Objectives                              2

Finding
     Inactive National Stock Numbers         3

Appendixes
     A. Audit Process
         Scope and Methodology                8
         Management Control Program Review    9
         Prior Coverage                      10
     B. Report Distribution                  11
Background

         This report, the second in a series of reports on obsolete national stock number
         (NSN) items, discusses the Defense Logistics Agency (DLA) management of
         potentially inactive NSNs. An NSN is considered obsolete if the NSN is
         inactive and there are no current or future requirements anticipated by any
         registered user or the integrated materiel manager of the NSN. Inspector
         General, DoD, Report No. D-2000-185, “Allegations to the Defense Hotline
         Concerning Management of Obsolete Reparable Items,” September 7, 2000,
         discusses obsolete NSNs in Navy weapon system files.

         Materiel Management. DLA supply centers are assigned the primary
         responsibility for materiel management for a group of items used by either a
         particular Service or by DoD as a whole. Materiel management responsibilities
         include cataloging,∗ requirements computation, procurement direction,
         distribution management, and disposal direction. DLA supply centers manage
         more than 4.1 million NSNs and support more than 1,400 weapon systems.

         DoD Guidance. DoD Manual 4140.32-M, “Defense Inactive Item Program
         (DIIP),” August 1992, states that items no longer needed to support the mission
         of DoD organizations, other Federal agencies, or the International Logistics
         Program, needlessly consume machine time, personnel resources, and
         warehouse space with serious effect on the total supply system. DoD managers
         at every level are expected to place serious and continuous emphasis on the
         purging of unneeded items from the materiel inventory and active catalog files.

         DLA Procedures. DLA Manual 4140.2, “Supply Operations Manual,”
         July 1, 1999, provides policy, uniform guidance, and procedures for DLA
         supply centers to systematically review and eliminate inactive items of supply
         from the DLA supply system.

         Potentially Inactive NSNs. As of July 2000, DLA supply records, excluding
         the clothing and textile, medical, and subsistence commodities, identified
         91,097 NSNs that were coded as potentially inactive because the Military
         Departments had withdrawn their interest as users and no longer required the
         items. DLA Manual 4140.2 requires that item managers (IMs) review
         potentially inactive NSNs to determine whether the NSNs should be deleted or
         retained in the DLA supply system. Although Military Departments may have


∗
 The act of naming, classifying, describing, and numbering each item repetitively used, purchased,
 stocked, or distributed so as to distinguish each item from every other item. Also included is the
 maintenance of information related to the item and the dissemination of that information to item users.

                                                    1
     withdrawn their interest as users, the IM can retain the NSNs in the DLA supply
     system for several reasons, including those instances when the NSN has special
     program requirements.


Objectives

     Our overall audit objective was to evaluate the processes that the Military
     Departments and DLA used to identify and delete items in weapon system files
     that had obsolete NSNs. This report addresses DLA management of NSNs
     coded as potentially inactive, or obsolete, because the Military Departments had
     withdrawn their interest as users and no longer required the items. We also
     reviewed the management control program as it applied to the audit objective.
     Subsequent reports will address obsolete NSNs in Military Department and
     DLA supply system files. See Appendix A for a discussion of the audit scope
     and methodology, the management control program, and prior audit coverage.




                                         2
            Inactive National Stock Numbers
            DLA IMs did not take timely actions to review potentially inactive NSNs
            to determine whether the NSNs should be deleted from the DLA supply
            system. Of the 91,097 potentially inactive NSNs, 87,437 (96 percent)
            had been awaiting review by IMs for at least 90 days and 36,066
            (41 percent) of the 87,437 NSNs had been awaiting IM review since
            1998 or earlier. Of the 91,097 NSNs, 32,625 had inventory on hand,
            valued at approximately $68.1 million. Management controls for the
            DIIP were ineffective because DLA management systems did not provide
            accurate and complete information to DIIP monitors, the DIIP was
            perceived as a low priority, and DIIP monitors did not regularly evaluate
            the DIIP and IM performance. Consequently, DLA incurred
            unnecessary supply management costs. As a result of our audit, the
            Defense Supply Center Philadelphia (DSCP) developed a computer
            program to expedite the review process and deleted 20,385 of the 26,434
            NSNs that had been in a review status over 90 days at the DSCP. Using
            a DLA cost study, we calculated that DLA avoided a minimum of
            $17.2 million of costs by eliminating unnecessary cataloging and supply
            system files, and by reducing inventory for the 20,385 NSNs. The full
            extent of the monetary benefits will be quantifiable after management
            reviews all inactive NSNs.


Criteria

     DIIP Guidance. DoD Manual 4140.32-M requires that DoD managers prepare
     a report, the DoD Inactive Item Progress Report, each year to measure the
     effectiveness of the DIIP. DLA Manual 4140.2 requires that the commander of
     each supply center designate a DIIP monitor to act as the focal point for all
     matters concerning the DIIP. DIIP monitor responsibilities include initiating the
     review of inactive items on an annual basis, and assessing and reporting the
     overall progress and effectiveness of the DIIP.

     DIIP Process. Each year the supply centers identify and select NSNs to include
     in the DIIP and refer those NSNs to registered users for review. Users are
     required to review the NSNs and notify the supply centers to either delete or
     retain the NSNs. When the last user has withdrawn its interest and its
     requirement for an item, the NSN is assigned an inactive item review code
     (IIRC) of W and supply data is provided to DLA IMs for further review in
     accordance with DLA Manual 4140.2. The DLA IMs review NSNs to
     determine coding accuracy, war reserve classifications, special program

                                         3
     requirements, and whether the item has assets on hand. Upon completion of the
     review, IMs are required to process a ZSM transaction (notification of supply
     center decision on withdrawal) to the supply system. The ZSM transaction
     contains an advice code to either delete or retain an NSN in the supply system.
     If the IM does not process the ZSM transaction within 90 days, the NSN is
     assigned an IIRC of Y and a listing, Delayed Defense Supply Center
     Withdrawal Action (the Listing), is provided to the IM and the DIIP monitor.
     IMs are required to annotate the Listing with their decision to either delete or
     retain a specific NSN and process the ZSM transaction. The NSN remains in an
     IIRC Y status on the Listing, which is generated each month, until the
     ZSM transaction is processed. If a ZSM transaction cannot be processed during
     the month, IMs are required to annotate the Listing with the justification for the
     delay and forward the Listing to the DIIP monitor. The DIIP monitor is to
     follow up with the IMs until the annotated Listings are returned to the monitor
     and the ZSM transactions are processed. If the decision is made to delete the
     NSN, any inventory is declared excess and disposal action is initiated.


Timeliness of Potentially Inactive NSN Reviews

     DLA IMs did not take timely actions to review NSNs identified as potentially
     inactive to determine whether the NSNs should be deleted or retained in the
     DLA supply system.

     Of the 91,097 NSNs that required IM review as of July 2000, 87,437
     (96 percent) had been awaiting IM review for at least 90 days and 36,066
     (41 percent) of the 87,437 NSNs had been awaiting IM review since 1998 or
     earlier. Of the 91,097 NSNs, 32,625 had inventory on hand, valued at
     approximately $68.1 million.


Management Controls

     Management controls for the DIIP were ineffective because DLA management
     systems did not provide accurate and complete information to DIIP monitors,
     the DIIP was perceived as a low priority, and DIIP monitors did not regularly
     evaluate the DIIP and IM performance.

     DIIP Analysis. We could not evaluate the management of the DIIP at DLA
     over the years because monthly reports with the necessary data were inaccurate.
     DLA collects DIIP data, including the number of NSNs sent to users, user
     responses or non-responses, and number of NSNs in IIRCs W and Y. DLA
     summarizes the data monthly on the Inactive Item Review Statistical Report (the
                                         4
Statistical Report), which allows DIIP monitors to review and analyze the DIIP
process and to identify trends and potential problems. Part III of the Statistical
Report provides data on NSNs coded IIRC W or Y. The data include the
number of NSNs in each IIRC at the beginning of the month, the number of
ZSM transactions processed during the month, and the number of NSNs in each
IIRC at the end of the month. As of July 2000, Part III of the Statistical Report
showed that DLA had 200,739 NSNs in IIRCs W and Y. When we compared
the data in the Statistical Report with the Listings generated by DLA, we noted
that the Listings showed only 91,097 NSNs in IIRCs W and Y for the same time
period. Based on a further inquiry of the DLA supply system, we concluded
that the 91,097 NSNs in the Listings was the correct total.

Tracking Timeliness. The DLA management information system did not
provide sufficient data to track the timeliness of IM reviews of NSNs assigned
IIRCs W and Y. The Listings reported all NSNs assigned IIRC Y that had not
been reviewed by an IM. However, the Listings did not provide complete
information on individual IM performance. For example, the Listings did not
include the total NSNs each IM had to review or information on the time that
the NSNs had been in an IIRC Y status. That type of information would be
useful in monitoring and improving IM performance.

DIIP Priority. We discussed the untimely NSN reviews with IMs from each of
the DLA supply centers, and they stated that reviewing inactive NSNs was not a
high priority. IMs primarily concentrated on managing NSNs that had current
or future requirements. Additionally, some IMs said that they had not received
the Listings to review.

DIIP Monitor. DIIP monitors did not follow up with IMs to determine why
IMs were not reviewing potentially inactive NSNs. DIIP monitors also did not
review the Statistical Report to assist in monitoring the DIIP. DIIP monitors
were unaware that the Statistical Report was inaccurate until we alerted them.
When we discussed the difference in the data between the Statistical Report and
the Listings with DLA personnel, neither we nor they could determine why the
Statistical Report was inaccurate. Although Part III of the Statistical Report was
inaccurate, it provides data on NSNs that would normally be useful to the DIIP
monitor. Had the DIIP monitors been actively monitoring the Statistical Report,
they may have determined the inaccuracy of the data and corrected it.




                                    5
Supply Center Actions

    DSCP. We commend the DSCP for taking positive management actions during
    the audit. When we notified the DSCP of the problems identified during the
    audit, the DSCP aggressively took actions to reduce the number of potentially
    inactive NSNs. The DSCP developed a computer program to expedite the
    review process, and deleted 20,385 of the 26,434 NSNs that had been in a
    review status over 90 days at the DSCP. Of the 20,385 NSNs, 4,203 had
    inventory on hand, valued at $3.9 million.

    Defense Supply Center Richmond. When notified of the problems identified
    in the audit, the Defense Supply Center Richmond agreed to develop a plan for
    reviewing the approximately 40,600 NSNs it managed that were in IIRCs W
    or Y. Personnel at the Defense Supply Center Richmond also agreed to
    maintain data on the number of NSNs that were deleted as a result of their
    review.


Cost of Maintaining Inactive NSNs

    In September 1999, the DLA Office of Operations Research and Resource
    Analysis published a study to provide cost data in support of item reduction
    studies. The study included cost avoidance data for eliminating an existing NSN
    from the DLA supply system. The following table shows the results of the
    study.

                                 Cost of Maintaining NSNs

                   Category                                               Cost

       Average annual cost to maintain a stocked NSN                     $ 400
       Average annual cost to maintain a non-stocked NSN                    200
       Average cost to delete a stocked or non-stocked NSN                   57
       Remaining life-cycle cost avoided eliminating a stocked NSN        1,495
       Remaining life-cycle cost avoided eliminating a non-stocked NSN      747


    Using the cost data from the DLA study, we calculated that a minimum of
    $17.2 million was avoided as a result of our audit. The $17.2 million was based
    on DSCP identification of 20,385 NSNs to be deleted from the DLA supply
    system. To calculate the $17.2 million, we determined how many of the 20,385
    NSNs were stocked and how many were non-stocked and multiplied the number
    of NSNs in each category by the appropriate remaining life-cycle cost. The


                                            6
    average life cycle of the 20,385 NSNs that were deleted was 4 years. From the
    combined total, we subtracted the cost to delete each NSN from the supply
    system to determine the net cost avoidance.

    Because the DLA supply centers have 64,663 more NSNs to review to
    determine whether the NSNs should be deleted or retained, the number of NSNs
    to be deleted should be significantly greater than the 20,385 NSNs that were
    deleted by the DSCP. The costs avoided should also be significantly greater
    than the $17.2 million calculated for those 20,385 NSNs.


Recommendations
    We recommend that the Director, Defense Logistics Agency:

           1. Establish controls to ensure that item managers promptly review
    national stock number items identified as potentially inactive. Those controls
    should include:

                  a. Providing the Defense Inactive Item Program monitor with
    the total number of national stock numbers requiring a review by each item
    manager and the length of time each national stock number has been in a review
    status.

                    b. Requiring the Program monitor to perform annual evaluations
    to ensure that item managers continue to promptly review inactive national stock
    number items.

           2. Maintain and annually report statistics to show how many inactive
    national stock numbers are deleted and the dollar value of inventory sent to
    disposal to quantify the cost avoidance realized.

           3. Correct Part III of the Inactive Item Review Statistical Report to
    properly reflect the number of national stock numbers in inactive item review
    codes W and Y.


Management Comments

    DLA did not comment on the draft report. We request that DLA provide
    comments on the final report.




                                        7
Appendix A. Audit Process

Scope and Methodology

    Work Performed. We reviewed the process that DLA supply centers used to
    review NSNs that were identified as potentially inactive because the Military
    Departments had withdrawn user interest. As of July 2000, DLA supply
    records, excluding the clothing and textile, medical, and subsistence
    commodities, identified 91,097 NSNs that were coded as potentially inactive
    because the Military Departments had withdrawn interest as users and no longer
    required the items. We reviewed DLA standard operating procedures and
    catalog and supply records. The documents reviewed were dated from
    September 1997 through September 2000. We interviewed DLA personnel to
    assist in determining why potentially inactive NSNs had not been reviewed.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure.

           FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (00-DoD-2)
           FY 2000 Subordinate Performance Goal 2.3: Streamline the DoD
           infrastructure by redesigning the Department’s support structure and
           pursuing business practice reforms. (00-DoD-2.3) FY 2000
           Performance Measure 2.3.6: Disposal of excess National Defense
           Stockpile inventory and reduction of supply inventory (00-DoD-2.3.6)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           Logistics Functional Area. Objective: Streamline logistics
           infrastructure. Goal: Implement most successful business practices.
           (LOG-3.1)

                                        8
    High-Risk Area. The General Accounting Office has identified several high-
    risk areas in DoD. This report provides coverage of the Defense Inventory
    Management high-risk area.

    Use of Computer-Processed Data. We relied on computer-processed data
    provided by DLA to determine NSNs identified as potentially inactive because
    the Military Departments had withdrawn user interest. We did not perform a
    formal reliability assessment of the computer-processed data. However, to the
    extent that we reviewed the data, we did not find any errors that would preclude
    use of the data to meet the audit objective or that would change the conclusions
    in this report.

    Audit Type, Dates, and Standards. This economy and efficiency audit was
    performed from June through September 2000 in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. Accordingly, we included tests of
    management controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review

    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended and to evaluate the
    adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DLA management controls over reviewing NSNs that were
    identified as potentially inactive because the Military Departments had
    withdrawn their interest as users and no longer required the item. We reviewed
    management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. As defined by DoD Instruction 5010.40,
    we identified material management control weaknesses in reviewing NSNs that
    had no user interest and deleting them from DLA supply system files.
    Management controls were not adequate to ensure that NSNs that had no user



                                        9
    interest were reviewed in a timely manner. Recommendation 1. in this report,
    if implemented, will correct the material weaknesses and could result in
    potential monetary benefits in excess of $17.2 million. A copy of the report
    will be provided to the senior official responsible for management controls in
    DLA.

    Adequacy of Management’s Self-Evaluation. DLA did not identify reviewing
    NSNs that had no user interest as an assessable unit and, therefore, did not
    identify or report the material management control weaknesses identified by the
    audit.


Prior Coverage

    Inspector General, DoD, Report No. D-2000-185, “Allegations to the Defense
    Hotline Concerning Management of Obsolete Reparable Items,”
    September 7, 2000




                                       10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
  Commander, Defense Supply Center Columbus
  Commander, Defense Supply Center Philadelphia
  Commander, Defense Supply Center Richmond

Non-Defense Federal Organization
Office of Management and Budget




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       12
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector, DoD, who contributed to the report are listed below.

Shelton R. Young
Raymond D. Kidd
Tilghman A. Schraden
Terrance P. Wing
John W. Henry
James J. McDermott
David R. Hasz
Robert M. Paluck
Paula A. Richardson
